LEGAL PRINTE

11

S9

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-1361:

REGINA B. HEISLER, INDIVIDUALLY AND AS THE EXECUTRIX OF
THE SUCCESSION OF FREDERICK P. HEISLER V. GIROD LOANCO,
LLC

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on April 20,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondent:
RESPONDENT:
J. Eric Lockridge
KEAN MILLER LLP
400 Convention Street, Suite 700
Baton Rouge, LA 70802
225-387-0999
eric.lockridge@keanmiller.com
This service was effected by depositing one copy of a Second Supplemental Brief
to Petition for a Writ of Certiorari in an official "first class mail" receptacle of the
United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My =melon exp.Ostober1Z 2022

Sworn and subscribed before me this 20th day of April 2021.

